<html>
<title> - OVERSIGHT OF THE STATE DEPARTMENT: IS MANAGEMENT GETTING RESULTS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   OVERSIGHT OF THE STATE DEPARTMENT: IS MANAGEMENT GETTING RESULTS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2000

                               __________

                           Serial No. 106-244

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-594                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2000....................................     1
Statement of:
    Edwards, Bert T., Chief Financial Officer and Assistant 
      Secretary for Finance and Management Policy, U.S. 
      Department of State; and David G. Carpenter, Assistant 
      Secretary for Diplomatic Security and Director of the 
      Office of Foreign Missions, U.S. Department of State.......     5
    Williams-Bridgers, Jacquelyn L., Inspector General, U.S. 
      Department of State; and Ben Nelson, Director, National 
      Security and International Affairs Division, U.S. General 
      Accounting Office..........................................    31
Letters, statements, etc., submitted for the record by:
    Carpenter, David G., Assistant Secretary for Diplomatic 
      Security and Director of the Office of Foreign Missions, 
      U.S. Department of State, prepared statement of............    18
    Edwards, Bert T., Chief Financial Officer and Assistant 
      Secretary for Finance and Management Policy, U.S. 
      Department of State, prepared statement of.................     8
    Nelson, Ben, Director, National Security and International 
      Affairs Division, U.S. General Accounting Office, prepared 
      statement of...............................................    54
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Williams-Bridgers, Jacquelyn L., Inspector General, U.S. 
      Department of State, prepared statement of.................    35

 
   OVERSIGHT OF THE STATE DEPARTMENT: IS MANAGEMENT GETTING RESULTS?

                              ----------                              


                        WEDNESDAY, JULY 19, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Mica, and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; R. Nicholas 
Palarino, senior policy advisor; Robert Newman and Thomas 
Costa, professional staff members; and Jason M. Chung, clerk; 
David Rapallo, minority counsel; Jean Gosa and Earley Green, 
minority assistant clerks; and Chris Traci, minority staff 
assistant.
    Mr. Shays. This hearing of the Subcommittee on National 
Security, Veterans Affairs, and International Relations of the 
Government Reform Committee is now in order on a hearing 
entitled, ``Oversight of the State Department: Is Management 
Getting Results?'' I welcome our witnesses and our guests.
    Early last year, the subcommittee heard testimony on four 
critical challenges confronting the Department of State [DOS]; 
enhancing security of American personnel and facilities 
overseas; right-sizing the U.S. presence abroad; upgrading 
information technologies, including financial systems; and 
complying with the planning requirements of the Government 
Performance and Results Act.
    We revisit these issues this morning because, despite some 
progress, the Department still seems hobbled by hidebound 
processes and an excuse-prone management culture reluctant to 
change them.
    According to the General Accounting Office and the DOS 
Inspector General, the Department underestimated the near-term 
feasibility and cost of urgently needed security enhancements 
at U.S. facilities. Key recommendations of the Overseas 
Presence Advisory Panel appear doomed to be studied to death or 
ignored altogether.
    The disappearance of a DOS laptop computer containing 
sensitive information underscores how much the Department has 
yet to accomplish in reconciling demands for flexible, but 
secure, information and financial systems.
    We could be more certain the Department was on a trajectory 
to solve these problems if all the goals and measures required 
by the Results Act were in place; but they are not.
    The 1999 DOS performance report, the first required by the 
act, lacks specificity. According to the IG, the plan ``does 
not provide decisionmakers in the executive branch or Congress 
with a clear assessment of the Department's progress . . .''
    The lack of specifics stems, in part, from the apparent 
belief at Foggy Bottom that much of the Department's work is 
just too intangible or too important to be categorized and 
quantified by the same base enterprise that counts visa 
applications.
    But Results Act requirements apply as fully to diplomacy as 
to passport processing; so DOS leadership needs to focus on 
Department-wide performance plans, goals, and measures that 
demonstrate tangible progress in all aspects of their work.
    As a management approach to urgent issues like Embassy 
security, worldwide information systems, and the overall shape 
of our national presence abroad, the Results Act offers DOS an 
incremental, but inevitable, path through bureaucratic 
stalemates and cultural resistance once thought intractable. It 
is a path the Department must demonstrate a greater willingness 
and ability to follow.
    Our goal, as an oversight subcommittee, is to be a 
constructive force for change at the Department of State, to 
focus attention on progress and problems in achieving the 
Nation's global mission. In that effort, we continue to rely on 
the cooperation, the dedication, and the expertise of many, 
including our witnesses this morning. We look forward to their 
testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T3594.001
    
    [GRAPHIC] [TIFF OMITTED] T3594.002
    
    Mr. Shays. Our first panel, and we have two, is the 
Honorable Bert T. Edwards, Chief Financial Officer, Assistant 
Secretary for Financial Management and Policy, U.S. Department 
of State; and the Honorable David G. Carpenter, Assistant 
Secretary for diplomatic Security and Director of the Office of 
Foreign Missions, U.S. Department of State.
    I would just ask if you anticipate any of your colleagues 
will be responding to a question, we would want them to stand 
and swear them in, just so we do not have to do that again, if 
you think that is a likelihood. So I will ask you both to 
stand. If there is anyone else, they should be requested to 
stand.
    [Witnesses sworn.]
    Mr. Shays. I will note for the record that our witnesses 
responded in the affirmative.
    Mr. Edwards, we will start with you. We have a 5-minute 
clock. We will rotate it, and give you another 5, if you need 
it. Then we will go from there.
    Mr. Edwards, welcome.

  STATEMENTS OF BERT T. EDWARDS, CHIEF FINANCIAL OFFICER AND 
  ASSISTANT SECRETARY FOR FINANCE AND MANAGEMENT POLICY, U.S. 
    DEPARTMENT OF STATE; AND DAVID G. CARPENTER, ASSISTANT 
SECRETARY FOR DIPLOMATIC SECURITY AND DIRECTOR OF THE OFFICE OF 
           FOREIGN MISSIONS, U.S. DEPARTMENT OF STATE

    Mr. Edwards. Thank you, Mr. Chairman and members of your 
subcommittee who may join you, for allowing me and Assistant 
Secretary Carpenter the opportunity to appear before you today 
to discuss key management challenges facing the Department of 
State, in particular implementation of the Government 
Performance and Results Act and management of security 
programs.
    As you know, Patrick Kennedy, the Assistant Secretary of 
State for administration, was scheduled to join us today to 
help respond to your questions. But he is tied up in the Camp 
David talks, and has asked me to apologize for his absence.
    The Department of State cannot meet the challenges in these 
management areas without the strong support and leadership of 
your committee, as well as that of our authorization and 
appropriations committees.
    With your permission, Mr. Chairman, I would like to give a 
brief statement on Strategic Planning at State. Assistant 
Secretary Carpenter will follow with a brief statement on 
security management, after which we would be pleased to respond 
to questions on management issues that you or your colleagues 
may have.
    The Department continues to make progress in building a 
unified process for policy and resource management, based on 
strategic planning and performance measurement.
    The process begins early each calendar year with the 
preparation by overseas posts of Mission Performance Plans. All 
agencies at post are invited by the Chief of Mission to 
participate in the preparation of these plans, which are then 
reviewed in Washington by an interagency team.
    The MPPs are then used by the Department's regional, 
functional, and management bureaus to formulate annual Bureau 
Performance Plans that set out long-term goals and short-term 
objectives in their areas of responsibility for achieving the 
overall strategic goals of the Department.
    A formal review of each bureau's plan is conducted by the 
Department's Corporate Board. This process has just started and 
will extend into September.
    The internal planning documents from the bureaus and 
missions form a basis for the Department's Annual Performance 
Plan, which is submitted as part of our budget presentation.
    In response to comments from GAO, OMB, and our own 
Inspector General, we significantly revised the Annual 
Performance Plan for fiscal year 2001. It is a more 
comprehensive plan than prior versions, and uses a template to 
display goals, outcomes, strategies, and resources.
    The Performance Plan follows the framework of the 
Department's Strategic Plan, which was first published in 
September 1997. An updated version of that Strategic Plan is 
circulating in draft to all of our customers, stakeholders, and 
partners, including committees of the Congress. We will 
incorporate their comments and publish the revised Strategic 
Plan this September. A Senior Advisory Group at the Assistant 
Secretary level is leading this project.
    We have recently published our first-ever Annual 
Performance Report, covering fiscal year 1999. State had good 
results in 1999, which range from the complex diplomacy leading 
to the trials of two terrorists for the 1988 Pan Am bombing 
over Lockerbie, to efforts which forged a coalition of NATO 
nations to successfully stop ethnic cleansing and murder in 
Kosovo.
    Last month, we worked with the GAO on a review of our 
fiscal year 1999 Performance Report, and our fiscal year 2001 
Performance Plan. Both the GAO and the Department's Inspector 
General have played a constructive role in helping us improve 
the Department's planning operations.
    Ideally, performance measurement and evaluation for 
international affairs should be carried out on an interagency 
basis but, in practice, this is extraordinarily difficult.
    One way the Department attempts to coordinate with other 
agencies is through the International Affairs Strategic Plan, 
which we created in concert with them. The plan identifies 16 
long-term goals for the entire U.S. Government not just the 
Department of State. The role of the Department of State is 
defined for each of the goals, as well as the lead agency for a 
particular goal.
    No matter how good we make our planning process, unless we 
have the resources to carry out our plans, much of the planning 
work will be wasted.
    For too many years, the Department's budgets, except most 
recently for security, have been held below current services. 
As a result of these cuts, the Department is in increasing 
danger of becoming a hollowed-out organization. Thus, we 
strongly encourage the Congress to support the President's 
fiscal year 2001 request for the Department of State.
    This effort to better coordinate our planning with that of 
other agencies working in the international arena dovetails 
with the multi-agency effort to implement the report of the 
Overseas Presence Advisory Panel.
    The OPAP report was triggered by the tragic bombings of our 
Embassies in Nairobi and Dar es Salaam on August 7, 1998. The 
implementation report has been submitted to the Secretary of 
State for her approval, and describes both the results of our 
OPAP implementation efforts and what remains to be done.
    As Chief Financial Officer of the Department, and with a 
key focus of this testimony being on performance, I would like 
to take this opportunity to mention briefly our success in 
three areas of financial management.
    First, the Department has reduced the number of material 
weaknesses reported in response to the Federal Managers' 
Financial Integrity Act from 19, at the start of fiscal year 
1995, to only 4 at the close of fiscal year 1999, of which 3 
will be closed this year.
    Second, we are proud that, for the last 3 years, we have 
received an unqualified opinion from our Inspector General and 
the IG's independent contractor, who conducted the annual 
audits of our agency-wide financial statements.
    Finally, while our financial management systems are 
currently reported as the Department's one remaining material 
weakness, substantial progress has been made in bringing the 
systems into compliance with the requirements of the Federal 
Financial Management Improvement Act. We are already in 
compliance with two of the act's three requirements.
    Let me finish my remarks by describing one of the 
Department's major accomplishments of the last year; the 
successful integration of the Arms Control and Disarmament 
Agency, and the U.S. Information Agency into the Department.
    This massive undertaking, the largest structural change to 
the U.S. Government's foreign affairs administration in 
decades, has proceeded more smoothly than anyone expected. 
Putting these functions under one Cabinet Secretary has already 
enhanced the consistency and integrity of our foreign policy. 
In the near term, we will need to invest significant resources 
to maximize the benefits of this integration.
    This concludes my statement, Mr. Chairman.
    [The prepared statement of Mr. Edwards follows:]

    [GRAPHIC] [TIFF OMITTED] T3594.003
    
    [GRAPHIC] [TIFF OMITTED] T3594.004
    
    [GRAPHIC] [TIFF OMITTED] T3594.005
    
    [GRAPHIC] [TIFF OMITTED] T3594.006
    
    [GRAPHIC] [TIFF OMITTED] T3594.007
    
    Mr. Shays. Thank you, Mr. Edwards.
    Mr. Carpenter.
    Mr. Carpenter. Good morning, Mr. Chairman.
    I welcome this opportunity to testify before you on the 
security profile of State Department facilities, both domestic 
and abroad.
    On August 7, 1998, our Embassies in Dar es Salaam, 
Tanzania, and Nairobi, Kenya, were bombed simultaneously by 
extremists bent on the destruction of American presence 
throughout the world. These tragedies unleased a massive and 
intensive effort to provide much needed security improvements 
at all our posts overseas.
    Although much has been accomplished, more needs to be done. 
Our overseas facilities are generally more secure now than in 
August 1998, but the continuing threat environment worldwide 
requires that we not lose focus, that we continue to explore 
new ways of protecting ourselves, and support a program for new 
Embassy construction.
    Our goal following the bombings was to immediately improve 
the security of our threatened consulates and Embassies, and we 
have done so. But at the outset, let me say that it is 
important for this subcommittee to know that we still have a 
very basic problem that cannot be fixed quickly.
    The vast majority of our diplomatic posts fail to meet one 
of the most basic security standards, namely, the 100 foot 
setback standard. Until we can build Embassies meeting the 
setback and other security standards, our efforts cannot 
provide the degree of security all of us want for our people 
and facilities.
    Having recognized that we still have grave security 
concerns overseas, it is also important for the subcommittee to 
know that we have done a lot and that our Embassies and 
consulates are more secure now than ever before. In this 
regard, let me review for you what we have done throughout the 
security upgrade program.
    Some of these actions have been based solely on DOS 
initiatives. Others were suggested by the Accountability Review 
Boards chaired by Retired Admiral William J. Crowe, the report 
of the Overseas Presence Advisory Panel, and the Office of the 
Inspector General.
    We are aggressively upgrading security at low and medium 
threat level posts to standards that previously only applied to 
high and critical rated posts. We no longer believe, in an era 
of transnational terrorism, that we have low or medium threat 
posts, nor do we believe that we will always receive tactical 
intelligence of an imminent attack. Simply put, we must be 
prepared to meet the most violent terrorist attacks at all of 
our facilities all of the time.
    The physical security upgrades we have put in place at our 
Embassies and consulates include reinforced perimeter walls, 
bollards, hardened guard booths, vehicle barriers, and shatter 
resistant window film.
    We are upgrading and deploying security equipment to 
provide better lighting, cameras, and video recorders; bomb 
detection equipment; armored vehicles, alarm, and public 
address systems; and x-ray equipment. Where possible, we have 
mitigated the lack of sufficient setback by closing streets and 
providing for mandatory vehicle inspections.
    We have also expanded our Anti-Terrorism Assistance 
Training to aid foreign police in combating terrorism through 
such appropriate programs as surveillance detection, border 
security, explosive detection, crisis management, and maritime 
security.
    In addition, we have installed alarm systems at Embassies 
and consulates to alert personnel to impending emergency 
situations, and have instituted a program for the employees to 
``duck and cover'' when the alarms are sounded.
    We have also created a new security environment threat list 
with a modified methodology and criteria for determining threat 
levels. This process now addresses transnational terrorism as a 
distinct category, as well as the threats from indigenous 
terrorism and political violence, and the threats from 
intelligence services, both technical and human and, of course, 
crime.
    DOS has also changed the focus of its training courses for 
Regional Security Officers and Special Agents to give them 
greater training on counter-terrorism methodology; explosive 
ordinance recognition and disposal; chemical/biological weapons 
threats and defenses; and surveillance detection techniques.
    In response to a specific recommendation from the 
Accountability Review Board, we are also working with the FBI 
to better analyze law enforcement information, which might have 
a bearing on threats to our missions overseas and to more 
quickly disseminate that information to appropriate posts.
    To that end, a DOS special agent has been detailed to the 
International Terrorism Section at FBI Headquarters, and the 
DOS special agents are participating in the FBI's Terrorism 
Task Force.
    DOS has also established the Office of the Coordinator for 
Chemical Biological Countermeasures. That office, which is 
conducting a worldwide survey to determine vulnerabilities, has 
purchased and is distributing chemical biological equipment to 
all posts.
    As part of its educational program, it has distributed 
instructional materials, including a pamphlet, videos, and a 
series of cables, to alert all posts to the nature of the 
threat, and to provide defensive guidance. It has also 
established a comprehensive training program for security 
professionals and first responders.
    The newest addition to our programs and of major 
significance has been the establishment of surveillance 
detection programs at almost all of our overseas posts. A 
critical lesson learned from the bombings is that there is 
intense surveillance conducted against our facilities prior to 
an attack.
    Since going operational in January 1999, surveillance 
detection teams, most of which work with host government's 
security services, have observed over 700 suspected incidents 
of surveillance against our personnel and facilities. It has, 
in a sense, expanded our security perimeter and zone of control 
beyond our previous limitations.
    The surveillance detection program is clearly a ``work in 
progress,'' but we feel that it is destined to become a major 
aspect of our overseas security defenses.
    Finally, and I believe most importantly, DOS has hired 200 
new special agents, which has allowed for the creation of 140 
new security officer positions abroad.
    By the end of fiscal year 2000, we will have 420 DOS 
special agents serving as security officers in 157 countries. 
DOS has also hired 20 additional diplomatic couriers, 17 
security engineers, 34 maintenance technicians, and 46 civil 
servants in support of overseas security.
    Although the African bombings necessarily caused me to 
focus my attention most closely on overseas security at the 
beginning of my tenure, three incidents in the Main State 
building brought home to all of us the need to strengthen 
domestic information security, as well.
    In February 1998, an unknown male in a tweed coat carried 
away classified documents from the Secretary's suite of 
offices. That case, which was investigated by the FBI, is in an 
inactive status at this time.
    The second incident came to light on December 8, 1999, when 
Russian Intelligence Officer Stanislav Gusev was arrested on 
the street outside the State Department, as he listened in on a 
meeting in the Department's Oceans and International 
Environmental Scientific Affairs' conference room, via a bug 
planted in the chair railing. Gusev, who had diplomatic 
immunity preventing his prosecution in the United States, was 
asked to leave the country.
    The investigation by the FBI continues into, among other 
things, how the bug was planted. That inquiry is still 
underway.
    The third incident was, of course, the disappearance of the 
laptop believed to have sensitive compartmented information 
material on its hard drive from a Bureau of Intelligence and 
Research conference room in January of this year.
    DOS had responsibility, together with the FBI, after the 
fact, for investigating the security violation, but not for 
protecting the information beforehand. At this time, the loss 
of the laptop containing SCI material is under active 
investigation by DOS and the FBI.
    Mr. Chairman, we learned some valuable lessons about our 
security posture domestically from these incidents. The 
fundamental problem making such security lapses possible was 
not an absence of proper policies and procedures, as those are 
and have been in place. The problem was simply carelessness; 
that is; non-compliance and/or disregard for established 
regulations.
    These incidents prompted us to take measures which 
complement existing regulations and procedures, and are 
designed to change the lax attitude toward security at the 
State Department.
    I believe that we have made substantial progress. We have 
tightened security in the Secretary's suite of offices. We have 
adopted a rigorous, comprehensive escort policy; worked to 
strengthen computer safeguards; and assigned uniformed officers 
to patrol specific floors inside the building.
    At Main State, we have an after-hours inspection program of 
department offices. We also continue our program of bringing 
Marine Security Guards in training into the Department, 10 
times a year, to conduct security sweeps.
    We have provided security awareness briefings to over 5,000 
Department personnel. In addition, we have closed D Street 
outside the building to traffic, and installed cement barriers 
around the entire building, thus lessening our physical 
vulnerability.
    Finally, and directly because of the laptop incident, the 
Secretary decided, after consulting with the Director of 
Central Intelligence, that DOS should take over from INR the 
responsibility for protection of SCI material in accordance 
with DCI requirements. We are committed to working hand-in-
glove with INR and the DCI to make this transfer as smooth as 
possible.
    In March, I convened an inter-agency review panel, 
comprised of senior security representatives from the FBI, DOD, 
the Secret Service, the CIA, and diplomatic security. The panel 
was asked to review the counter measures currently in place to 
protect against unauthorized access to Main State building and 
classified information.
    I also requested that they make recommendations to improve 
security at Main State. The panel's report is complete, and has 
been sent to the Secretary. Once she and the administration 
have had an opportunity to review it, I will be glad to share 
it with the subcommittee.
    The panel confirmed our assessment of known weaknesses in 
our programs, and recommended both short and long-term 
solutions, that it believed will enhance security at Main 
State. Their findings center on Main State's access, controls, 
its physical security, information security, security 
awareness, our uniform protective officer program, and the 
creation of a chemical biological program.
    I am convinced that the development of a strategic plan to 
fund and implement these findings will result in a significant 
improvement in our programs.
    The Secretary's leadership in raising security awareness 
has been invaluable. She has personally emphasized security at 
every opportunity for the purpose of strengthening the culture 
of security at State.
    As you know, on May 3, she held a Department-wide town 
meeting on security issues, because of the laptop incident. In 
the course of that meeting, she stressed that each of our 
employees must be ``our neighbor's keeper'' when it comes to 
security.
    The position that she has taken with respect to individual 
responsibility among our diplomats, that regardless how 
``skilled you may be as a diplomat . . . if you are not 
professional about security, you are a failure,'' has resonated 
throughout the Department.
    Further, when she told the Department employees that the 
press reports were accurate, and that she was, indeed, 
``furious'' about our security lapses, any mistaken belief 
anyone might have had that the Secretary wanted simply to let 
this blow over and be forgotten was forcefully corrected.
    It is also significant that Ambassador Marc Grossman, who 
was sworn in as the new Director General of the Foreign Service 
on June 19th of this year, is committed to working with us to 
increase employee accountability with respect to security 
matters.
    That is important because while the Bureau of Diplomatic 
Security investigates security lapses, it is the Director 
General who disciplines those who commit the security 
violations of infractions.
    Ambassador Grossman's tough-minded position with regard to 
security is certain to resonate throughout the Department.
    Ambassador Grossman and I have agreed to an action plan, 
which the Secretary has approved, for strengthening security 
and accountability, that includes the following: require each 
bureau in the Department and each mission overseas to include 
in its Bureau and Mission Program Plans specific steps for 
increasing security awareness; require a report on all security 
incidents in the field to be reported immediately to the 
Department, and ensure that an employee's permanent security 
incident record is updated and available for reference from 
Washington and overseas; prospectively increase the sanctions 
and penalties for security incidents; link security awareness 
to the promotion and tenuring process by including ``security 
awareness and accountability'' in promotion and tenuring 
precepts, and in all employees' work requirement statements; 
and require that full field security investigations conducted 
on candidates for Presidential appointments include security 
incidents.
    Mr. Chairman, I believe that what we have done and are 
doing, combined with the stark, ugly reality of what security 
failures produce, have gone a long way in raising awareness at 
the Department.
    I think that we have reached the point where the decided 
majority of State Department employees have recognized that a 
threat exists; that poor practices are unacceptable; that 
security is a high priority with the Secretary, this 
administration, and this Congress; and that employees will be 
held accountable for lapses.
    I can assure you that the Secretary, the Director General, 
and I will continue to drive home those points as forcefully as 
possible.
    Finally, and of great significance with regard to the 
future of security within the Department, the Secretary has 
identified a need for the creation of a new Under Secretary for 
Security, Law Enforcement and Counter-terrorism. This proposal 
is currently being reviewed within the administration.
    We believe that such a position will clearly establish 
lines of accountability and responsibility with respect to the 
Department's security, law enforcement, and threat functions.
    Mr. Chairman, this concludes my testimony. As I indicated, 
we have been diligent in our efforts to upgrade security at our 
overseas ports, and we have been successful in making those 
facilities safer now than ever before. We have also worked very 
hard to improve our security posture domestically.
    Nevertheless, there is still much that needs to be done. We 
do not intend to stop until we have completed the upgrade of 
the facilities abroad and completed also our efforts to ensure 
our security domestically.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carpenter follows:]

    [GRAPHIC] [TIFF OMITTED] T3594.008
    
    [GRAPHIC] [TIFF OMITTED] T3594.009
    
    [GRAPHIC] [TIFF OMITTED] T3594.010
    
    [GRAPHIC] [TIFF OMITTED] T3594.011
    
    [GRAPHIC] [TIFF OMITTED] T3594.012
    
    [GRAPHIC] [TIFF OMITTED] T3594.013
    
    [GRAPHIC] [TIFF OMITTED] T3594.014
    
    [GRAPHIC] [TIFF OMITTED] T3594.015
    
    [GRAPHIC] [TIFF OMITTED] T3594.016
    
    [GRAPHIC] [TIFF OMITTED] T3594.017
    
    [GRAPHIC] [TIFF OMITTED] T3594.018
    
    [GRAPHIC] [TIFF OMITTED] T3594.019
    
    [GRAPHIC] [TIFF OMITTED] T3594.020
    
    Mr. Shays. Thank you very much.
    If you could just wait a second, please.
    If it is OK with both of you, what we are going to do is, 
we are going to get our next panel just to come up, and we will 
exchange seats.
    I have some questions, but then I would be asking questions 
twice and having statements. I think we can make the hearing 
shorter and more efficient.
    So we are going to ask the next panel to come up. Mr. 
Edwards and Mr. Carpenter will both just listen to the 
presentation of Jacquelyn Williams-Bridgers and Ben Nelson. So 
we will swear them in next.
    I think we can make this a fairly succinct hearing this 
way, and I appreciate your cooperation. I will ask you both to 
stand, because I will swear you in. Thank you.
    Is there anyone else that you might want to respond to 
questions?
    Mr. Nelson. There may be, from GAO.
    Mr. Shays. Thank you. That is helpful, just in case you 
need to respond. You may not have to.
    [Witnesses sworn.]
    Mr. Shays. Thank you. For the record, all three have 
responded in the affirmative. If we call on you, we will give 
the transcriber your card, and we will take care of that.
    Ms. Bridgers, we will start with you as Inspector General, 
this time, and we will go with you, Mr. Nelson, after that. 
Really, what I am looking to do is just to have you put your 
statements on the record, and I will be asking you a few 
questions.
    I appreciate the State Department being flexible this way. 
They can hear what you are saying, and it gives them an 
opportunity to respond.
    Ms. Williams-Bridgers. Sure.
    Mr. Shays. And that is the way we will proceed. So you have 
the floor.

    STATEMENTS OF JACQUELYN L. WILLIAMS-BRIDGERS, INSPECTOR 
 GENERAL, U.S. DEPARTMENT OF STATE; AND BEN NELSON, DIRECTOR, 
  NATIONAL SECURITY AND INTERNATIONAL AFFAIRS DIVISION, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Ms. Williams-Bridgers. Thank you, Mr. Chairman, for the 
opportunity to testify on major management challenges facing 
the Department.
    Today, I would like to focus my remarks first on the 
Department's implementation of the Government Performance and 
Results Act; and second, on the management of security 
programs, both at our Embassies overseas and here at home.
    The Department's strategic planning process has improved 
from previous years, but it still does not fully comply with 
the Results Act. The Department has not yet developed overall 
priorities for its strategic goals and, consequently, has no 
overall basis for allocating resources to priorities.
    My office's work has also identified the need for improved 
performance information in the Department's bureau and mission 
level plans.
    Although more comprehensive than the fiscal year 1999 to 
2000 plan, the Department's 2001 Performance Plan does not 
address all of the shortcomings found in last year's plan.
    The revised format includes a more detailed description of 
the Department's activities toward achieving its goals, but 
there is minimal discussion of the inter-agency coordination, 
resource allocation, data limitations, and whether or not the 
data can be verified and validated.
    Also, the 2000 plan does not include some of the 
performance goals, indicators, and management challenges that 
were identified previously, with no explanation as to why they 
were excluded this year.
    Beginning in 1998, the Department required that all bureaus 
submit annual performance plans, organized around the 
Department's 16 strategic goals and three diplomatic readiness 
goals.
    OIG has made recommendations to the Department on how it 
can improve its bureau plans. Recently, we have made 
recommendations on how strategic planning could be better used 
to report the results of the Department's work in reducing 
trade barriers in the telecommunications area, and the need for 
better performance data to assess the Department's initiatives 
on recruiting foreign service specialists.
    OIG's work has also focused on the planning efforts at our 
Embassies. As with the bureaus, each Embassy is asked to submit 
annually a mission performance plan. Our post-inspections have 
found that despite its usefulness in improving communications 
at post, the process of developing the Embassy-level plans has 
generally not met the objectives set by the Department's 
planners.
    Although the Department instructed posts to focus only on 
the most important goals and objectives, rather than produce a 
full mission activity inventory, lengthy mission performance 
plans generally catalog each post's activities, rather than 
prioritizing them. Lengthy MPPs are partially a reflection of 
the Department's lack of prioritization of its overall 
strategic goals.
    The Department stated that it cannot prioritize its work, 
because U.S. interests in any one part of the world at any one 
time may reflect a different order from other parts of the 
world.
    In the absence of clearly stated priorities, posts will 
have little incentive to prioritize their own goals and 
objectives. Without a clear statement of those priorities, the 
Department cannot meet the act's intent or its own goal to 
align resources with priorities.
    The Department's fiscal year 1999 performance report 
reflects the weaknesses of its performance plan. Without annual 
performance goals, the performance report generally provides a 
narrative list of accomplishments under each of the 16 
strategic goals, and an annex of information on the measures 
for illustrative goals or performance goals.
    Consequently, the report does not provide decisionmakers 
with a clear assessment of the Department's progress against 
its goals.
    Without increased management attention to setting 
priorities and developing overall performance goals that can be 
used to assess its performance, the Department will be unable 
to make significant progress under the Results Act.
    To date, we have seen limited evidence that goals and 
measures are used in the agency's decisionmaking process. Until 
that happens, bureau and post officials will continue to be 
frustrated with what they consider to be a paper exercise, and 
decisionmakers will be limited in their ability to determine 
the effectiveness of their programs.
    The second major challenge for the Department that I will 
address today is the need to ensure the safety and security of 
U.S. personnel and facilities overseas. Security continues to 
be a paramount concern for the Department.
    Security lapses at Main State clearly demonstrate that the 
Department must address vulnerabilities in protecting vital 
information on the domestic front, as well as overseas.
    By the end of this summer, OIG will have evaluated the 
physical security and emergency preparedness of 68 Embassies, 
since the 1988 bombings of our Embassies in Nairobi and Dar es 
Salaam.
    This past year, none of the 42 Embassies we inspected met 
all the security standards; standards designed to protect our 
personnel. The lack of a 30 meter setback, as outlined by 
Ambassador Carpenter, was the most prevalent deficiency.
    Addressing inadequate setback, combined with the lack of 
anti-ram barrier perimeter walls and adequately protected 
windows, will require a major long-term construction effort.
    Actions have been taken or are underway to correct these 
items that the Department can quickly fix, such as improving 
the local guard force, lighting, or alarms at a chancery.
    Last year, before this subcommittee, I discussed emergency 
preparedness and the importance of conducting crisis management 
exercises and the emergency drills at posts. Despite their 
importance, OIG has found that most posts are not routinely 
conducting mission-wide exercises of all the required drills.
    In response, the Department has recently issued 
instructions to all Chiefs of Missions to conduct these drills.
    Turning my attention to Washington, following several 
security incidents at Main State, my office was requested by 
the Senate Select Committee on Intelligence, to evaluate the 
effectiveness of Department policies and procedures for 
protecting classified documents.
    We found that the Department had programs in place to 
evaluate individuals' need to handle classified information. 
but that improvements to enhance security awareness and 
controls to prevent unauthorized access were required.
    Highly classified documents relating to intelligence 
reporting were not safeguarded in accordance with Government 
regulations.
    Significant numbers of uncleared visitors were permitted 
unescorted access to Main State. They were not always escorted 
to areas where classified information was handled, processed, 
and discussed.
    Finally, unit security officers were not well informed 
about and did not have the authority to enforce security 
requirements.
    The Department has taken important first steps to address 
these concerns. However, administrative actions taken to 
discipline employees have been and remain ineffective in 
correcting poor security practices.
    Some of the most difficult security issues to correct, both 
domestically and overseas, deal with information security. In 
many ways, improving information security may be a bigger 
challenge than improving physical security, because many of the 
corrections involve personal behavior, rather than technical 
equipment.
    Correcting identified vulnerabilities requires sustained 
management attention, leadership, technically qualified people, 
money, and the desire to do things differently.
    Mr. Chairman, in your invitation to testify this morning, 
you asked that I address the Department's implementation of the 
Results Act and its management of security programs.
    The Department's strategic planning process has improved 
over the past 2 years. But absent a global priority setting 
process, we see a need, at a minimum, to establish within 
geographic regions and areas of activity a process for using 
strategic planning as a basis for allocating resources to 
priorities.
    In security, the Department has responded well to the need 
to move quickly in the aftermath of the bombings, and to 
effectively use emergency funding.
    The Department's success, however, is dependent on how well 
and for how long it exercises disciplined attention to 
effective security practices, and remains committed to the 
funding, construction, maintenance, and continual improvement 
of that infrastructure.
    As the Department and the Congress embark on this very 
expensive commitment, the requirement for the Office of 
Inspector General is to continue to provide the specialized 
oversight of the use of those funds for security enhancements.
    The Department is now moving from the emergency response 
mode to a more strategic approach for the rebuilding of our 
foreign affairs infrastructure, and so must the OIG with the 
sustained program of expertise in the oversight of these 
initiatives.
    Your continued support for the OIG in this regard is much 
appreciated. I will answer questions at the appropriate time.
    [The prepared statement of Ms. Williams-Bridgers follows:]

    [GRAPHIC] [TIFF OMITTED] T3594.021
    
    [GRAPHIC] [TIFF OMITTED] T3594.022
    
    [GRAPHIC] [TIFF OMITTED] T3594.023
    
    [GRAPHIC] [TIFF OMITTED] T3594.024
    
    [GRAPHIC] [TIFF OMITTED] T3594.025
    
    [GRAPHIC] [TIFF OMITTED] T3594.026
    
    [GRAPHIC] [TIFF OMITTED] T3594.027
    
    [GRAPHIC] [TIFF OMITTED] T3594.028
    
    [GRAPHIC] [TIFF OMITTED] T3594.029
    
    [GRAPHIC] [TIFF OMITTED] T3594.030
    
    [GRAPHIC] [TIFF OMITTED] T3594.031
    
    [GRAPHIC] [TIFF OMITTED] T3594.032
    
    [GRAPHIC] [TIFF OMITTED] T3594.033
    
    [GRAPHIC] [TIFF OMITTED] T3594.034
    
    [GRAPHIC] [TIFF OMITTED] T3594.035
    
    [GRAPHIC] [TIFF OMITTED] T3594.036
    
    Mr. Shays. Thank you very much, Ms. Williams-Bridgers.
    Mr. Nelson.
    Mr. Nelson. Good morning, Mr. Chairman.
    I am pleased to be here today to provide an update on the 
Department of State's progress in addressing many of the 
security and other management challenges raised during a 
hearing before this subcommittee last year.
    These challenges arise from the Department's responsibility 
to maintain operations at over 250 overseas locations to 
support its mission and that of about 40 other U.S. Government 
agencies, and to protect over 50,000 U.S. and foreign national 
employees at hundreds of overseas facilities.
    The State Department spends a substantial amount of its 
$4.3 billion foreign affairs administration budget on business-
type activities that support its global operations.
    These activities provide staff overseas with access to 
financial and information services, security, housing, 
personnel services, and more.
    In making decisions on the size and capacity of the support 
structure at any particular location, State must consider the 
views of other U.S. Government agencies, including Defense, 
Commerce, Agriculture, Treasury, and Justice.
    Since last year's hearing, an independent advisory panel 
has examined the U.S. overseas presence, and recommended 
options for streamlining and right-sizing overseas operations, 
consistent with U.S. policy priorities and a vastly changing 
world, with new requirements for security, communications, 
technology, and service. Many of the panel's recommendations 
address concerns that we have raised over the years.
    My testimony will focus on State's progress in addressing 
the challenges it faces in its efforts to achieve a more 
secure, efficient, and effective network of operations, 
including its response to the recommendations from the 
independent advisory panel.
    Mr. Chairman, the major challenges that the Department 
faces are the same as those identified last year, and which you 
enumerated in your opening comments.
    This includes better utilizing the Government Performance 
and Results Act process to improve strategic and performance 
planning in the pursuit of overall mission, policy, and 
operational objectives; improving the security of U.S. 
personnel and facilities at overseas locations in a cost 
effective and timely manner; determining the right-size and 
location of U.S. overseas presence to both improve the 
efficiency of operations and reduce the security burden; and 
finally, upgrading information and financial management systems 
to further improve communications, accountability, and 
decisionmaking.
    State has indicated that it will need several billion 
dollars in capital construction and other investments over 
several years to achieve operations that can effectively 
support U.S. overseas interests.
    To successfully meet any of these challenges, the 
Department needs to have a clearly articulated vision, a 
coherent strategy, and congressional commitment and oversight 
to make sure that intended results are achieved.
    Let me provide a brief summary of State's progress, 
remaining challenges, and obstacles in each of the four areas 
that I mentioned.
    The leadership team at the Department has recognized many 
of these challenges, and has devoted substantial resources to 
addressing them. As a result, State has made considerable 
progress in many areas, but still faces significant obstacles 
in achieving an efficient, effective, and secure overseas 
platform to support U.S. interests.
    Briefly, in the area of strategic and performance planning, 
our evaluations have shown that State's strategic and 
performance plans have had their strong points. However, they 
have only partially met the requirements of the 1993 Government 
Performance and Results Act.
    State's strategic plan defined U.S. interests and clarified 
U.S. foreign policy goals. Its annual performance plan for 
fiscal year 2000 showed improvement over prior years' plans, in 
terms of linking strategies and measures to goals.
    However, the plan also fell short in a number of areas. For 
example, it did not present a complete picture of baselines, 
targets, and measures for some of the strategic goals, and did 
not elaborate on how State plans to work with other agencies to 
achieve progress on cost cutting issues such as trade policy 
and stopping the flow of illegal narcotics.
    State recently issued its fiscal year 1999 performance 
report, the first one required under the Results Act, and its 
performance plan for fiscal year 2001. Both have some of the 
same weaknesses found in prior planning efforts.
    In particular, the performance report does not adequately 
demonstrate State's level of success in achieving desired 
outcomes, or the way in which State's actions actually led to 
the achievement of desired goals.
    State recognizes that it needs to continue to strengthen 
its strategic and performance planning as part of its overall 
effort to improve management and address critical issues.
    The next area is security. In light of the potential for 
terrorism by groups opposed to U.S. interests, enhancing the 
security of Embassies and consulates might well be the most 
significant challenge facing the Department.
    In the aftermath of the bombings of two United States 
Embassies in Africa in 1998, State, using about $1.5 billion in 
emergency supplemental funds, started to significantly upgrade 
security at all of its overseas posts and build new facilities 
that meet higher security standards.
    However, the Department faces many challenges to its goals 
in this area. State has made progress in implementing certain 
emergency security upgrades, such as initiating a surveillance 
detection program, and providing armored vehicles. But because 
of the scope of the program, many facilities are still awaiting 
enhancements such as barriers, walls, and other safeguards.
    In addition, due to more stringent security requirements 
and better documentation of what is needed at individual posts, 
State estimates that the emergency upgrades may cost hundreds 
of millions of dollars more than originally envisioned, and 
will likely take several years to complete.
    Moreover, State is encountering several obstacles in its 
efforts to construct new and more secure Embassies and 
consulates, including difficulties in purchasing suitable sites 
for buildings, and gaining agreement among agencies on future 
staffing levels and resulting requirements.
    Another key challenge for State is to right-size its 
overseas presence. State is in the early stages of examining 
options to restructure overseas presence, in light of changing 
needs in the post-cold war world and advances in technology.
    We have recommended that State reexamine the way it 
conducts overseas administrative functions, such as relocating 
and housing employees.
    From my work, we have also suggested that State explore the 
potential for regionalizing certain functions, and making 
greater use of technology and outsourcing, to achieve 
efficiencies and improve performance. Actions in these areas 
could potentially reduce the overseas presence.
    State has established several committees to consider the 
recommendations of the overseas presence advisory panel, 
regarding right-sizing and greater use of information 
technology, and the management of capital facilities.
    The last area, Mr. Chairman, involves information and 
financial management. Consistent with our recommendations, 
State has made many improvements in its information and 
financial management systems. State was able to successfully 
meet Y2K challenges and received unqualified opinions on its 
financial statements for fiscal years 1997, 1998, and 1999. 
However, it faces continuing challenges in this area.
    Currently, there is no common platform serving all agencies 
operating overseas. Despite the success I mentioned, State 
still does not have an integrated financial management system 
that meets the requirements of the Federal Financial Management 
Improvement Act of 1996.
    Improvements in these areas would provide managers with 
more timely information that they need to operate in a more 
businesslike fashion, and to make cost-based decisions.
    Mr. Chairman, this concludes my opening remarks. I would be 
happy to answer any questions that you may have.
    [Note.--The GAO report entitled, ``State Department 
Overseas Emergency Security Program Processing, But Costs Are 
Increasing,'' may be found in subcommittee files.]
    [The prepared statement of Mr. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T3594.037
    
    [GRAPHIC] [TIFF OMITTED] T3594.038
    
    [GRAPHIC] [TIFF OMITTED] T3594.039
    
    [GRAPHIC] [TIFF OMITTED] T3594.040
    
    [GRAPHIC] [TIFF OMITTED] T3594.041
    
    [GRAPHIC] [TIFF OMITTED] T3594.042
    
    [GRAPHIC] [TIFF OMITTED] T3594.043
    
    [GRAPHIC] [TIFF OMITTED] T3594.044
    
    [GRAPHIC] [TIFF OMITTED] T3594.045
    
    [GRAPHIC] [TIFF OMITTED] T3594.046
    
    [GRAPHIC] [TIFF OMITTED] T3594.047
    
    [GRAPHIC] [TIFF OMITTED] T3594.048
    
    [GRAPHIC] [TIFF OMITTED] T3594.049
    
    [GRAPHIC] [TIFF OMITTED] T3594.050
    
    [GRAPHIC] [TIFF OMITTED] T3594.051
    
    [GRAPHIC] [TIFF OMITTED] T3594.052
    
    [GRAPHIC] [TIFF OMITTED] T3594.053
    
    Mr. Shays. Thank you, Mr. Nelson.
    What I am thinking of doing, and I do not think this will 
be awkward, is to invite the State Department to come on back, 
and just have a dialog. I have listened to your presentations. 
There is nothing that we all cannot deal with, collectively.
    So I would invite both of our former witnesses to come. We 
will kind of squeeze you all in, and we will just bring one 
more chair in, too.
    Let me just get one housekeeping thing out of the way. I 
ask unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record. The 
record will remain open for 3 days for that purpose. Without 
objection, that is so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, that is so ordered.
    I let your testimony, in some cases, go beyond 10 minutes, 
because I just wanted your comments on the record. I am not 
sure we are going to have a lot of questions. I have a more 
general one.
    Some of my enthusiasm has been taken away, because I felt 
it almost arrogant that State somehow feels that they do not 
come totally and completely under the Results Act. In other 
words, somehow their mission is so different that they would 
not.
    I asked my staff, does the GAO and IG come under it? The IG 
comes under the Results Act, I believe. Is that correct?
    Ms. Williams-Bridgers. Actually, Mr. Shays, the Results Act 
does not specifically require the IGs to do it. But the IG 
community, as a whole, has endorsed GPRA, and we think it is 
good for Government, and it is good for us.
    Mr. Shays. Right.
    Ms. Williams-Bridgers. So almost all of the IGs do comply 
with the letter and the spirit of GPRA.
    Mr. Shays. And the GAO's office?
    Mr. Nelson. I think, technically, we are not covered by it, 
but we do fully comply with it.
    Mr. Shays. Right.
    Mr. Nelson. GAO is a major supporter of it, and believes 
that it is an excellent tool to focus the agency's activities 
to make sure that we are achieving our critical mission 
objectives.
    Mr. Shays. Mr. Mica and I have been strong supporters of 
congressional accountability, getting Congress under all the 
laws. We are not technically under it either. Although I think 
probably, in our various offices, we try to comply with a lot 
of it.
    So I guess I just need to put that on the record. I said, 
how dare the State Department feel somehow that they are 
unique? This may be an assumption that is wrong.
    I get the sense, from your testimony, Mr. Edwards, that 
there is an attempt to deal with the Results Act, but that 
somehow people that you work with feel that your mission is so 
unique that you really cannot come under it. I would like you 
to address that issue.
    Mr. Edwards. I think that is an excellent question, Mr. 
Chairman. Obviously, when part of your goals are to have things 
not happen, such as the outbreak of war or pestilence and 
things like that, it is difficult to measure your success. But 
we have developed a multi-disciplinary team of Assistant 
Secretaries, and we are working to find a way.
    Just as, I might say, having spent most of my career in the 
private sector, corporations find a way to measure their 
effectiveness, we are going to attempt to do this.
    It is relatively easy to measure output, such as number of 
treaties signed, and negotiations, and so forth. The outcomes, 
which is really what GPRA is all about, are daunting for us.
    We are working with the Mercatus Center, George Mason 
University, and as I indicated in my testimony, our IG and the 
GAO, to develop methodologies so that we can do a much better 
job of seeing how many arrows hit the center of the target, and 
how many are in the periphery or flying into space and not 
hitting the target.
    I might comment in response to the IG's issue on 
prioritizing strategies, we are, of course, at the mercy of 
what happens out of our control.
    For example, I am sure you are aware of the very severe 
problems in Fiji and the South Pacific Islands places where no 
one ever dreamed there would be a problem. But we went and 
ordered departure in both of those posts, and worked with the 
Australian and New Zealand military to get people in harm's way 
out.
    So we are working very diligently on what many people would 
regard as a ``back water area'' to try to restore democracy and 
functioning governments in those two areas.
    In many cases, issues occur. Of course, as we speak, 
hopefully, many of us have our fingers crossed that there will 
be some agreement toward ending the Mideast crisis at Camp 
David, within the next 24 or 48 hours, before those leaders 
leave the country.
    So prioritizing a year or 2 years ahead of time certainly 
would be ideal. But geographically prioritizing some of those 
to specific areas or specific countries does pose a big 
challenge for us.
    Mr. Shays. Let me just say, I was just trying to get a 
sense of attitude. Is the State Department contending that they 
somehow do not come under parts of the Results Act, or in some 
way cannot come under it?
    Mr. Edwards. Well, not at all; I think there are some who 
would like not to be under it.
    But I can assure you that the management bureaus, headed by 
Under Secretary Cohen, of which Assistant Secretary Carpenter 
and I are a part, are struggling and determined to find a way 
that we can measure each of our approximately 30 bureaus in 
terms of what they are accomplishing.
    Mr. Shays. I cannot imagine the fact that outcomes cannot 
be predictable as being an excuse for not being under the act. 
I would think that FEMA can make the same argument. I mean, you 
know, we do not know what disasters will come our way.
    But they would, I would think, set goals that would be able 
to respond to simply not dealing with the predictable. That 
would be one of the areas, on how effectively do you respond to 
what is not predictable, and how quickly can you respond. I 
would think there would be ways that you could measure, dealing 
with that.
    Let me just ask you, Mr. Nelson or Ms. Williams-Bridgers, 
what is your sense of the attitude of the State, the DOS, in 
terms of trying to comply to the Results Act?
    Ms. Williams-Bridgers. I share Mr. Edwards' expressions 
that the State Department does consider itself to be held 
accountable to the Results Act. They are struggling, as many 
other agencies are struggling, with clear definition of 
outcomes and the measures of progress toward achieving those 
outcomes.
    This is why, in our full statement, we have said that, 
given that the Department acknowledges the need for some 
outcome-oriented goals, and given they acknowledge the need for 
some flexibility in any type of priority setting process that 
they establish in the Department to allow them to respond to 
crisis and unanticipated events, it is imperative that they 
have in place some credible process for establishing those 
priorities; and then have a resource allocation system that 
allows the funds to flow, according to those changing 
priorities.
    I do think it is a cultural attitude that will change with 
some education about the importance of priority setting; the 
importance of having a coordinated approach, an integrated 
approach of the mission planning process with Washington.
    Mr. Shays. I will come right back to you in a second. Mr. 
Nelson, do you want to respond?
    Mr. Nelson. Yes, I believe that the senior leadership in 
the Department has a major challenge in convincing the rank and 
file of the importance of strategic and performance planning.
    We have seen improvements in the Department's plans. But 
the plans, themselves, really are not that important.
    It is the process that you go through in putting together 
the plans, where you try to align activities with your 
missions, to make sure that they are contributing to the 
outcomes that are desired; and that you have a clear sense of 
what outcomes you want to achieve. So the process itself is a 
very critical and important management tool.
    I believe the Department's own fiscal year 2000 plan points 
out the challenge in convincing a large number of people in the 
Department that performance planning is a useful exercise. I 
believe there is a reference to that problem in the year 2000 
performance plan.
    Mr. Shays. OK, let me just have either of you, from our 
second panel, just describe to me the area where you think the 
State Department finds it the most difficult to deal with 
strategic and performance planning.
    Give me an example of something that your employees might 
have told you about a dialog, or saying, my God, how do we come 
under it, under this area? Can you think of any?
    Ms. Williams-Bridgers. I can think of it at two levels.
    First, at the mission level, the Embassies, what we found 
at the Embassies are some best practices, where the Embassies 
will engage all other U.S. Government agencies at post, the 
Chief of Mission, or the DCM, and have a good dialog about what 
is your understanding of our goals here in this region, in this 
country; what is your sense of priorities; and then developing 
that collective understanding and shared vision of what they 
are to accomplish in countries. That is very good.
    What falls down for the missions is, once they send those 
plans back here to Washington to the bureaus, they are not 
getting the kind of clear guidance and feedback from the 
bureaus that the Embassies believe is necessary in order for 
them to proceed with some assurance that they are walking in 
concert with what Washington believes to be the greatest sense 
of priorities, and the greatest area in need of attention by 
the mission.
    So it is the communication that occurs at post that is very 
good, but not back here to Washington. It has improved 
somewhat. We have seen some improvement within the past year, 
but there is much more need for clarity; there is much more 
need for a dialog and very specific feedback from bureaus in 
Washington.
    Mr. Shays. I can think of one criticism, in my contact with 
Embassy officials. They do not have the ability, or at least 
did not have the ability to communicate from Embassy to 
Embassy. They did not have the ability to share. They did not 
have technology that would give them the latest abilities to 
communicate.
    It strikes me as important, and any where it is important, 
within an Embassy and between Embassies and among Embassies, 
and so on.
    Mr. Mica. Will the gentleman yield?
    Mr. Shays. Yes.
    Mr. Mica. I just got through reading part of the update, 
here. On the point you are talking about, I cannot believe that 
this is correct.
    They said they are doing a little demo in the next fiscal 
year, and it would be 2 to 2\1/2\ years before they can 
actually install a global communication system. Is that still 
correct, according to someone's testimony here?
    Mr. Edwards. I am not sure which testimony, Congressman, 
that you are referring to.
    Mr. Mica. Well, does anybody know? I mean, I think the 
chairman makes an incredible point. I am absolutely appalled, 
and I have been in the Embassies around the world. It is almost 
laughable. I would fire people's asses, excuse me, if this was 
any kind of operation.
    It is absolutely unbelievable that they cannot communicate. 
They do not even have basic e-mail communication in some of 
these places.
    In one Embassy that we went into, they take turns using a 
computer. In the report, and I just read it in here in one of 
these, it says it is going to be 2\1/2\ years before they have 
any kind of a communication system.
    Here it is. They had a suggestion from the panel for a 
single unclassified global communications network to serve all 
U.S. agencies with oversized presence.
    It could be billed to the cost of $200 million. That is 
peanuts. It goes into the State, in its fiscal year, and this 
would be 2001, for two pilot posts. It says if it is proven 
workable and funded, State believes it could get operational in 
about 2\1/2\ years, according to page 12 of this report.
    Mr. Nelson. Is this the GAO testimony?
    Mr. Mica. Yes.
    Mr. Shays. Let me just comment, just as an illustration on 
something.
    Mr. Mica. To me, it is just mind boggling.
    Mr. Shays. This is just as an illustration of something. I 
would like you all to comment, and then I am going to give up 
the floor.
    We know that in some Embassies, they can communicate back 
to DC, but they cannot communicate to another Embassy. They 
cannot even communicate sometimes within the Embassy, from one 
employee to another. You have State Department employees. You 
have Commerce Department employees.
    I guess what I am trying to say to you, Mr. Edwards, is 
that it would strike me that the Department would gain 
tremendously by deciding what its strategic plans are, or what 
its performance goals are, because it would highlight where we 
have scarce resources.
    So my objective today is to hopefully learn if there is 
still a cultural bias against dealing with strategic planning 
and so on, point one. So that is one concern. I am going to let 
you respond in a second.
    Mr. Carpenter, I just want to get on the table a concern I 
have. I can understand that we cannot re-do buildings.
    I understand that probably the administration has asked for 
less money than it needs. Then you all are in the position to 
defend it. Then we have this wonderful ability to claim 
ignorance, because we were not asked for what you truly need.
    So one is, I would love to know more. That is not for this 
hearing, but we need to know more what you really truly need.
    Given that we are not going to rebuild buildings and move 
them, the thing that I find of most concern is that there is 
not, evidently, based on what we have heard today, the kind of 
practice runs on what you do if there is an emergency; what 
happens if there is a crisis with this; what happens if a bomb 
goes off; what happens if a terrorist is in the building, and 
what do we do?
    Those are the kinds of things that I would think we would 
want to be doing to compensate for what we are not doing. So 
that is kind of where I am coming from. Those are my two areas.
    I would love you, first, Mr. Edwards, just to respond to 
the issue that I just previously raised. Then I will come to 
you, Mr. Carpenter, and we will ask Mr. Nelson and Ms. 
Williams-Bridgers to respond. Then we will go to you, John.
    Mr. Edwards. OK, I would like to start off first of all, 
with the Information Resource Management Bureau, which is, 
again, one of the bureaus that Assistant Secretary Carpenter 
works with. They would support accelerating that.
    Our problem is that our information technology request for 
2000, for example, was reduced substantially from the prior 
year. A lot of that 2\1/2\ years is simply buying the hardware.
    We have, within the OPAP review, one of the three 
committees deal with an IT platform. We have, quite frankly, a 
problem getting the tenants at our posts to agree to use a 
common platform.
    We have tenants that are funded by various committees. 
Sometimes they come with gold plated Cadillacs, while our ALMA 
program, which we have been putting into the Embassies, would 
be functionally late model Chevrolets. So for all of our 
tenants to work with the same equipment is not the easiest 
thing in the world.
    Mr. Shays. I think it is important to point this out, and 
it is somewhat extraordinary, but it also is of tremendous 
concern. I am just trying to illustrate another way where the 
State Department could benefit tremendously by dealing with the 
Results Act. You could highlight these points in a way that 
could give you a tremendous amount of weight in dealing with 
your tenants.
    Mr. Edwards. Well, I would agree completely with that 
observation, Mr. Chairman.
    Mr. Shays. OK.
    Mr. Edwards. We are attempting to do that through the OPAP 
working groups, one of which is the IT group I mentioned; the 
second is facilities; and the third is right-sizing.
    We have just had an initial meeting, for example, with 
Embassy in Paris. Not surprisingly, every one of the agencies 
who were there objected to any suggestion that they were 
overstaffed. So this is going to be very difficult. But I think 
from an inter-agency point of view, a collective answer cannot 
be, we cannot reduce a single person.
    Mr. Shays. You see, what you may conclude is that you need 
the benefits of the Results Act more than any department, 
rather than less.
    Mr. Edwards. Well, I think in this case, you are absolutely 
correct.
    Mr. Shays. Well, in this case, even when you mention that 
you are bringing in some technology, if it does not fit in with 
an overall plan, it just may be a waste and an expensive 
effort.
    Anyway, I want to let Mr. Mica respond. My goal is quite 
simple today. I just want you to be enthusiasts for coming in 
to the Results Act. Then I would like you to feel pain and 
suffering, if you do not. [Laughter.]
    Mr. Carpenter, do you want to just respond to that?
    Mr. Carpenter. Yes, sir, Mr. Chairman, I totally agree that 
security drills are critical to any security program overseas.
    We have requirements that security drills be run; whether 
they be for fires, bombs, terrorist attacks. Chemical 
biological seems to be the newest threat that has befallen us, 
for which you have to have a plan to evacuate, or take the 
appropriate action.
    Our requirement currently has been to do these annually in 
most posts, and semi-annually in those higher threat posts.
    We just recently, in May, sent out a cable, once we were 
advised by the IG that their experience was that this was not 
being done, admonishing them, requiring them to do that 
immediately.
    Clearly, that is one of our defensive measures out there. 
That is as important as having delta barriers up and all the 
other equipment in place, if you are not dwelling on this.
    Mr. Shays. I do not know if annually is going to be enough 
for you. If it is annually, I do not think there is a sense of 
urgency.
    Mr. Carpenter. You are right. Certainly, annually, to have 
a fire drill may not be adequate, when we have, at certain 
times of the year, changes in the number of personnel at posts, 
and turnover in our foreign service cadre. It has to be a 
focus. We are attempting to make it a focus, along with a lot 
of other programs at post.
    We have been, in the course of the last 2 years, been 
focusing clearly on having a plan, should something occur at 
one of these Embassies, because we believe very seriously that 
we will have another incident at a post overseas. At the posts 
that are prepared, the casualties will be the lesser. That is 
our goal.
    Mr. Shays. Thank you. I have gone well over my time. I 
invite Mr. Mica to continue. Just let me recognize the presence 
of Mr. Tierney. We will get to you when Mr. Mica is done. Thank 
you. You have the floor, Mr. Mica.
    Mr. Mica. Thank you.
    Well, again, I am just totally frustrated that after years 
of looking at State, and finding out the very basic operational 
need, which is communications, if you cannot communicate, 
either within the Embassy or between Embassies, or adequately 
internationally, there is a problem. So I am totally frustrated 
by what I have read here, if you could not tell.
    It also appears like the ``inmates are running asylum.'' On 
the right-sizing overseas, what is the status of that? You are 
telling me now, for example, Paris says that they cannot give 
up one position. They are all essential.
    Mr. Edwards. Well, the Ambassador has, as you know, 
testified that he believes it could be reduced. We had our 
inter-agency meeting, where the tenants disagreed; not the 
State Department position.
    Mr. Mica. OK, well, my question is not that. My question 
is, what is the mechanism for bringing about the change? Do we 
have in place, within State, or do we need congressional 
action? How do you right-size these overseas operations?
    Mr. Edwards. Well, we have a number of inter-agency teams. 
Secretary Albright actually chaired a meeting of the Cabinet.
    Mr. Mica. Well, has somebody made a decision, and we will 
use Paris, as to what the right-size should be?
    Mr. Edwards. That is being worked on. Some decisions have 
been made. For example, in my bureau, we have filed a report 
with the Congress of how we intend to reduce our financial 
service center in Paris from about 120 people to 14 or maybe 10 
or so, and moving them to Charleston, SC.
    Mr. Mica. The right-sizing of overseas operations has been 
going on for how long now?
    Mr. Edwards. Well, actually, many of the right-sizing has 
been going on for years.
    Again, in my bureau, at one point, we had 23 financial 
centers. We are now down to three. Two to 3 years from now, we 
will be down to two, with two-thirds of that in the United 
States and one-third still in Bangkok, which is a very 
efficient, very low cost operation, housed in our former 
Embassy.
    Mr. Mica. Again, you know, we are trying to talk about 
accountability, responsibility, and certain acts that we have 
put in to try to make this all work.
    Within the agency, you are telling me the Secretary has the 
authority to do this. I understand the Ambassador, even, has 
the authority to do this.
    Mr. Edwards. Right.
    Mr. Mica. Well, why is it not done?
    Mr. Edwards. Well, most of the growth, Mr. Congressman, has 
actually been in our tenant agencies, who have applied for 
permission to increase their staffing, because of their program 
mandates.
    Mr. Mica. OK, well, what if we just take State personnel? I 
was in one of the hearings, and I have seen testimony from the 
Ambassador about this. What about handling just your balliwick; 
not downsizing?
    I sat with our former colleague, Tom Lantos, son-in-law, 
Ambassador Dick Swett. I sat with him, and he brought in the 
Ambassadors from the Baltic and some of the emerging nations up 
there. They are totally inadequately staffed for some of these 
new emerging posts. We have got them coming out of the walls in 
Paris.
    I know it is hard to get them out of Gay Paree, but how do 
we make this thing work? What is wrong?
    Mr. Edwards. Well, what has to work is, there are agencies 
that have people at a particular post. In some posts, there may 
be 25 or 30 agencies, and in other posts, there may be State 
and USAID and maybe one other.
    Mr. Mica. How many USAID are in Paris?
    Mr. Edwards. USAID has very few in Paris, if any.
    Mr. Mica. I would hope so. That was just one of those quick 
questions. [Laughter.]
    Mr. Edwards. Paris and London have probably the largest 
list of tenants.
    Mr. Mica. Well, part of the problem is here in the 
Congress, because it is multi-jurisdictional. All these 
agencies have their own budgets, their own turf, their own 
jurisdiction. But somebody needs to get a handle on this.
    Again, my question is, just to restate it, how do we get 
right-sizing to work?
    Mr. Edwards. Well, let me just cover a couple of the 
points, and then Assistant Secretary Carpenter can chip in, and 
our Inspector General, as well.
    We have regionalized, for example, in Ft. Lauderdale, 
service areas for Western Hemisphere Bureau, because you can 
fly from south Florida to practically every one of the 
countries. So we have regional specialists there, as opposed to 
spreading them through 15 or 20 countries.
    We have regionalized a lot of our medical personnel, so 
that they can get to nearby posts relatively quickly, by 
available air service.
    I mentioned, in my bureau, we have gone from 23 to 3 
financial service centers, and have filed a plan to get that 
down to 2.
    Mr. Mica. OK, so you are telling me, from a technical 
standpoint and an authority standpoint, State already has the 
authority to do what they need to do, at least within your 
bailiwick, which is State?
    Mr. Edwards. We do have that.
    Mr. Mica. So it is a management decision, and either the 
Secretary or one of the Assistant Secretaries or the Ambassador 
is not carrying that through, for example, in Paris.
    Mr. Edwards. Well, our Ambassador probably is the lead 
Ambassador, in terms of right-sizing, in that particular case. 
He would like to significantly reduce.
    Mr. Mica. But why is that not done?
    Mr. Edwards. Well, in inter-agency, we had our first 
meeting.
    Mr. Mica. I do not even want to fire anybody. [Laughter.]
    I am just trying to move them where we need them.
    Mr. Edwards. Help? [Laughter.]
    Ms. Williams-Bridgers. Yes, Mr. Mica, I have comments on a 
couple of different issues that you have raised.
    One is, what the State Department has done. I think they 
have undertaken a number of initiatives, over the years. One is 
the overseas staffing model, where they try to get a concept 
model in place that would help them to identify is the right 
number of people to do certain work in the mission, given the 
work requirements in a mission.
    But that concept has lapsed, basically. It was no longer 
considered to be very useful in actually assigning people or 
staffing positions overseas.
    The Department has also attempted efforts at 
regionalization, as Mr. Edwards has mentioned, at the financial 
service centers in Paris, and in Charleston, to provide 
administrative services.
    I think that to the extent the Department can continue to 
explore how to regionalize administrative services, that will 
help to address some of the growth in staffing that we have, 
and then the imminent security-related concerns.
    The Department has also been exploring the use of the 
American presence post concept; minimal presence of American 
officers. In Lyon, we just reestablished such a post, in 
France, under the very wise counsel and guidance, I believe, of 
Ambassador Rohatyn, there.
    But then to the larger issue of what can we do to right-
size the total U.S. Government presence overseas, I think there 
are tools in place. National Security Directive NSDD-38 
provides the Ambassadors, the Chiefs of Missions, with the 
requisite authorities to make calls on whether or not staffing 
has outgrown the ability of the Department to provide security 
for U.S. personnel overseas.
    Unfortunately, there is not oftentimes the will by the 
Chief of the Mission to exercise that authority, or the support 
back here in Washington, for a Chief of Mission, who wants to 
make that call, that we have reached our tolerable limits, and 
we can no longer provide for safety and security of our U.S. 
Government employees overseas.
    ICASS is another tool that this Congress passed with 
several objectives. One is not only to share the costs across 
all Federal agencies for their presence overseas, but to make 
them make the tough calls about whether or not the U.S. 
Government can afford the cost of their presence overseas, 
which has grown over time.
    Unfortunately, OIG believes that ICASS has not met the full 
intent of congressional legislation. That needs to be 
revisited, because cost serves as a very equalizing factor, 
when people are making decisions on whether or not they need 
the additional 10 or 15 people.
    It is not State, as Mr. Edwards has mentioned, that has 
been the growth agent overseas. It is other agencies.
    So we do need congressional attention from committees such 
as yours, which have the broad based jurisdiction to ask the 
questions of whether or not other agencies have deliberated 
truthfully the cost of their presence, and whether or not they 
are picking up the cost of their presence overseas, and whether 
or not we can provide the security and the dollars that are 
necessary to provide security for all the people that find 
themselves working overseas now.
    Mr. Mica. Thank you, Mr. Chairman. I want to give everybody 
a change to ask questions.
    Mr. Shays. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you very much, Mr. Chairman and Mr. 
Mica.
    Mr. Carpenter, let me ask you, about your written 
testimony, and I assume that you repeated it when you were 
speaking. I apologize for being at another committee hearing 
when you were talking.
    You made the statement, I believe, or at least in writing 
you made the statement that the fundamental problem in security 
at Headquarters was with carelessness, rather than with the 
Department's security policies. What exactly were you getting 
at, with that?
    Mr. Carpenter. That would be individual responsibility. The 
Department has a lot of rules, a lot of regulations, a lot of 
policies that are in place that speak to a good, positive 
security program. However, people may choose to violate those, 
or exceptions have been made to those.
    One of the realities of what I inherited 2 years ago, we 
had a security program that was a program of exceptions that 
were made. They probably were good at the time. There may have 
been some sound reasoning to them at the time. But over time, I 
think that reasons and logic sort of dissipated, and we had 
sort of swiss cheese.
    What we have been in the process in the last 2 years is 
trying to patch all those holes. There are no exceptions. You 
will abide by these.
    But what is critical to any good security program is an 
ability to enforce it. We also felt that we were lacking there. 
We had the program. The program was in place. We just did not 
have the people to monitor and enforce it, which is critical.
    Mr. Tierney. So it was a manpower thing?
    Mr. Carpenter. Manpower, yes, sir.
    Mr. Tierney. I mean, in May, the FBI said that foreign 
spies have been unescorted and had access, by working 
undercover as news correspondents. Has that been addressed?
    Mr. Carpenter. Yes, it has, with the FBI.
    Mr. Tierney. What have you done?
    Mr. Carpenter. I would be glad, in another forum, to tell 
you exactly what we have done. I would suggest that that should 
not have been the subject of an open forum discussion, last 
time.
    But we have taken measures, and we are working very closely 
with the FBI and the CIA, as a matter of fact, and have a 
working agreement with them. This whole issue is well 
understood, and is being well coordinated between all three 
agencies.
    Mr. Tierney. Well, there were reports also that there was 
no screening procedure to ensure that the swipe access 
identification cards that were issued to employees and visitors 
were actually in the possession of their actual owners. Have 
there been steps taken to remedy that?
    Mr. Carpenter. Not completely; no sir, we are working on a 
system that it is unacceptable to not have a redundant system; 
whereby, you simply swipe a card, where no one is looking at 
the picture on the card for positive identification.
    We are looking at a system that will probably have a pin 
number. It may have, in other parts of the department, 
biometrics involved. So there are redundant systems, and that 
is what we are hoping to have in place, shortly.
    Mr. Tierney. Biometrics being a thumb print type of thing?
    Mr. Carpenter. A thumbprint or a retina recognition.
    Mr. Tierney. OK, there was also a report that none of the 
140 offices handling classified material at Headquarters had 
been inspected for listening devices or cameras, and there was 
no policy to record the receipt or return of classified 
materials. Has that been addressed?
    Mr. Carpenter. One of those statements is incorrect.
    Mr. Tierney. OK.
    Mr. Carpenter. Following the bugging, we did a top to 
bottom sweep, TSCM, on all of the conference rooms and offices 
of the building. That was reported erroneously.
    The second part of your questions was what?
    Mr. Tierney. That people were not being inspected for 
listening devices or cameras.
    Mr. Carpenter. That is people coming into the building?
    Mr. Tierney. Right.
    Mr. Carpenter. People are run through metal detectors at 
our entrances; visitors that is. That continues to be our 
policy.
    Mr. Tierney. But with respect to listening devices or 
cameras, there are no additional steps taken in that regard?
    Mr. Carpenter. Listening devices are tough. We run people 
through metal detectors. We check their bags, their belongings, 
when they come in. It is not, currently, against Department 
regulations to bring a camera into the Department of State.
    Mr. Tierney. Regarding the Marine Corps. Guards, and you 
know where I am going on this one, are said to have had 
practice for their overseas postings by having surprise 
inspections at State Department Headquarters.
    Mr. Carpenter. Yes.
    Mr. Tierney. On an average, supposedly they turned up 63 
problems per visit. Then those inspections were canceled, 
because there was too much paperwork. Is there any accuracy to 
that, or what has been done with regard to that situation?
    Mr. Carpenter. There is accuracy in the numbers of 
documents founds left out, from time to time. That has not been 
canceled.
    The program was decelerated, as the Marines did not have 
training classes going on where we could bring them in. That is 
a very robust program, and something that we found extremely 
valuable to our building security program, to have them come in 
and do a very, very thorough sweep of offices.
    Mr. Tierney. I just have one last question.
    We were told that a lot of contract employees, security 
guards, are only subject to cursory police checks. Supposedly, 
only 15 out of 100 candidates actually had security clearances.
    The press, and believe me, I understand that they are not 
always accurate, by any stretch of the imagination, indicate 
that the CIA has been so troubled by this record that they 
routinely withhold information that is classified.
    That might be a potential impairment of the ability of the 
State Department employees and officials to carry out their 
work. Is there any truth to that?
    Mr. Carpenter. I have no knowledge of the CIA withholding 
any information from the Department of State, based on those 
particular issues.
    We have a very good working relationship with the CIA. No 
one has suggested that. However, I would suggest that if we do 
not get our security act together at State, that would be 
something that I would expect them to broach with the 
Department.
    That is why we are working aggressively to get the programs 
back on a level that they should have been; that they never 
have been on before, I might add, so that we do not have to 
face that potential inevitability.
    Mr. Tierney. What is your assessment of just how far along 
you are in that process?
    Mr. Carpenter. It is clearly a work in progress. I would 
suggest that we have made some tremendous strides in some very 
major areas.
    As was referred to earlier with our escort policy, the 
Department of State had never had an escort policy. That was a 
huge undertaking. It has paid, I think, tremendous dividends.
    But there is a lot of work left to be done. As I mentioned 
in my statement, only recently were we given the responsibility 
for the security of SCI information. That is an incredible 
undertaking. There is a lot of work to be done there, and we 
are only scratching the surface. We are probably 5 percent 
there, with 95 percent to go.
    In other areas, we have made some tremendous strides in our 
physical security, increasing the number of guards. Overseas, 
our programs have raised dramatically. I think we have a real 
positive story there. Domestically, we still have a lot of work 
to do.
    Mr. Tierney. Now is everything internal, or do you need 
this Congress to do anything to facilitate?
    Mr. Carpenter. We continue to be, as a lot of agencies 
would tell you, resource poor.
    I think in the security element, in the security realm, all 
of the things that we got from the emergency supplement are 
nice and much appreciated.
    However, you need to have professional law enforcement 
people to oversee these programs. That is the area that we are 
pushing very hard for more professionals. We need more people 
to enforce this.
    Without an ability to enforce the good programs and 
policies and procedures that we have, we will be back in front 
of you, explaining another security incident state. That is why 
we are in the process of trying to prepare that for the 
Congress, as to what our needs will be.
    Mr. Tierney. Ms. Bridgers, what are your thoughts on all of 
this?
    Ms. Williams-Bridgers. I think that the Department has made 
remarkable strides in addressing security, both overseas and in 
response to the recent incidents here.
    In response to your question of what more is needed, I 
think it would be continued vigilance at top management levels 
in the Department. I think we should be setting a tenure for no 
tolerance or zero tolerance, for misconduct in the Department.
    In fact, that is the only area of outstanding response from 
the Department to the recommendations that we have made about 
the handling of classified information. That is the need for 
the Department to improve its disciplinary process to ensure 
that for those people who repeatedly violate security 
regulations that proper administrative action is taken.
    Mr. Tierney. Thank you.
    Mr. Nelson, I do not want to leave you out of this. I would 
like you to have an opportunity to tell us your thoughts on it. 
You were getting pretty comfortable sitting back there. 
[Laughter.]
    Mr. Nelson. Well, it is hard to have a discussion about 
financial management versus one about security and spies and 
notebooks being taken from the Department. I understand that.
    We have been following the news reports and the hearings 
that have been held regarding these issues at the Department.
    It is fairly clear that there are some challenges. It seems 
clear from all that I can hear that the Department is aware of 
it, and is taking some steps to deal with these security 
issues.
    Our work at GAO, let me digress and say, has been mainly in 
looking at the vulnerability of states' information systems to 
unauthorized access. We have worked closely with the Department 
to bring about some improvements in that particular area of 
information security versus security related to access to State 
Department facilities.
    Mr. Tierney. Thank you.
    Thank you all.
    Mr. Shays. I do not have many more questions. But the more 
I hear the responses to the questions, and also hear the 
questions themselves, I am more convinced that the State 
Department would benefit from being out in the forefront of 
wanting strategic goals and performance goals. I would just 
think it would be invaluable to the agency.
    As it relates to just thinking about it, in terms of 
security, is it not possible, and maybe it has happened, that 
in thinking about security, you realize that you may have to 
downsize a vulnerable facility, even in a not high risk area, 
but clearly in a high risk area?
    I guess I would want to ask Mr. Carpenter if that is 
happening. I mean, if we have a facility that is truly 
vulnerable, I would like to think that it is not filled with 
people.
    Mr. Carpenter. I would like to think that, also, Mr. 
Chairman. We have been, I think, very aggressive, but I think 
we need to be more aggressive in the future.
    We have a set of posts, right now, where we have put them 
in bands that we consider to be our most vulnerable posts, even 
with the security augmentations that have taken place over the 
last 2 years.
    We are going back to post and suggesting either they engage 
more fully with the host country to try to get the setback they 
need, either through street closures or some other means, 
property acquisitions, or something.
    If they are unable to do that, their options then become, 
you have to either dramatically downsize, or you have to 
consider closing your posts and operating offshore, until those 
security requirements are met.
    For those posts right now, we started out with about 15 on 
that list. We are down to about eight. They are aggressively 
trying that. I say we are down to eight, because seven of those 
were able to get host country positive responses. We had 
streets closed, and so forth.
    We have also looked, as the rotational period comes up this 
summer, at downsizing the number of replacements going in 
there. The goal being to try to mitigate the threat against the 
post.
    We have also, in some instances, moved our personnel from 
certain locations, more vulnerable locations on a compound, to 
less vulnerable. Although the setback is not there, we have 
given ourselves more setback within the compound that we reside 
in.
    Mr. Shays. Is it not true that with the Results Act, if 
your resources are limited, and you know that you are not going 
to be about to make construction changes, that it gives you a 
little bit more emphasis and need to realize that you have got 
to do some of these low cost types of actions that can help 
save lives?
    Mr. Carpenter. Yes, sir.
    Mr. Shays. We may have a few questions that we are going to 
give you in writing. The questions that I was just asked to ask 
you would make sense, but they are pretty standard numbers of 
when you will finish construction, and so on. So we are going 
to followup on that.
    I am pretty much concluded with my questions. I have come 
to think that, Mr. Tierney, if you end up becoming the chairman 
of this committee, or I am fortunate enough to become the 
chairman again, that we would have a wealth of opportunity in 
just dealing with two areas, and one in particular with Mr. 
Mica, on the whole issue of communication within and inter-
communication; and also, as well, the whole issue of tenants.
    I mean, there is just this built-up bias, I think, for 
having another agency be there in one way, because it is not 
your budget, State, and I make that assumption, at least for 
the personnel. But then there is a negative in the terms of the 
lack of control.
    If I was an ambassador, and I had all these free wheeling 
people from all these different departments in the Embassy, I 
would demand that I would be able to coordinate their activity 
in a very strong way.
    I do not have a sense that that is happening. But I will 
tell you, if I was using my Results Act effectively, I could 
document the need to do that.
    Mr. Mica. Mr. Chairman.
    Mr. Shays. Yes, I am done, so you have the floor.
    Mr. Mica. I do not know if you have done this. I chair the 
Drug Policy Subcommittee. You know, the drug issue runs over 
probably 12 to 15 different agencies and a number of the 
committees.
    This might be a good project to approach, as we have done, 
and I do not know if you have done it before, to ``haul them 
all in,'' sit them down at a table, and then call the 
appropriator staff and the authorizing staff into the mix, too.
    It is very hard for them to do anything by themselves. I 
find with agents, they all sort of dig their heels in. If we 
get them in a closed room, we sit them down at a conference 
table, and we have to try to move forward. That is what I have 
tried to do on some of these.
    Mr. Shays. This is as it relates to the drug effort?
    Mr. Mica. Well, no, the communications would be a good one; 
but the right-sizing is another one.
    Mr. Shays. I see, you did this?
    Mr. Mica. Oh, I have done that. In DOD, we hauled in State, 
we hauled in Treasury.
    Mr. Shays. He means that figuratively, ``hauled in.'' 
[Laughter.]
    Mr. Mica. You know, I am a partisan Republican, but we 
close the door, and we try to work out a solution. The ranking 
members work with us and others.
    Sometimes, we can get them to do things, and you do not 
need a lot more legislation. But you can also say you want 
some, and this takes repetitive meanings, sometimes.
    Mr. Shays. That is why I felt it was next year's efforts.
    Mr. Mica. Well, I think you have got an opportunity, even 
to initiate that now. I know there are a lot of things on your 
platter, but it might be most helpful. The communications and 
then the right-sizing are particular issues that are tough for 
them to solve, I think, by themselves.
    Mr. Shays. I agree with that.
    Mr. Mica. Thank you.
    Mr. Shays. Thank you. Do you have any other questions you 
want to ask?
    Mr. Mica. No.
    Mr. Shays. Are there any points that any of the four of you 
would like to make; a question that we should have asked, that 
you were prepared to answer?
    Mr. Carpenter. Perhaps before Congressman Mica leaves, I 
would like to say one thing. I cannot pass up this opportunity, 
because I know he was either a signatory to or a member of the 
Inman Commission, back in 1985, that looked at the State 
Department.
    Mr. Mica. That was my brother, Dan. Now you are in really 
big trouble. [Laughter.]
    Mr. Shays. His brother was a Democrat.
    Mr. Mica. And on behalf of the family, we appreciate the 
recognition. [Laughter.]
    Mr. Shays. Tell me about his brother. I will listen. 
[Laughter.]
    Mr. Carpenter. The issue being, in 1985, the staffing size 
of diplomatic security was the same as it was in 1998, for the 
bombings.
    It ramped up after the Inman Commission, and it came back 
down, shortly thereafter. I would say that is at least a factor 
in what we are experiencing, right now.
    My plea or my point here is that we cannot allow what 
happened after Inman to happen. I think we all have that 
responsibility to ensure that that does not happen again.
    I hear a lot of grumblings within my own bureau, and within 
the State Department, that we are destined for that. If we are, 
we are destined to fail, again. I would just ask your 
assistance and help in ensuring that that does not happen, 
again.
    Mr. Shays. I am sorry, ``destined to fail'' in what way? I 
just missed the first part.
    Mr. Carpenter. I think if the commitment that appears to be 
made by the Hill, to finances, more people, security things 
rise up, or we take our eye off the ball, then we will be 
destined to have another incident.
    Mr. Shays. That is fair enough, and important to put on the 
record. Thank you.
    Mr. Nelson, do you have anything that you would like to say 
in conclusion?
    Mr. Nelson. I would just like to conclude by saying that 
the problems and challenges that the Department faces, I think, 
are well recognized.
    I think that it will be incumbent upon this committee and 
the Congress to make sure that the Department has a clear 
vision and strategy for what it would like to achieve, and a 
commitment that is supported by the Congress in order to avoid 
what Mr. Carpenter referred to.
    I think the issues of the U.S. presence, as well as the 
protection of a U.S. staff and information, are a critical 
national security issue for the country; not for any particular 
group. Diligence will be required, as well as continued 
oversight by this committee.
    Mr. Shays. Thank you.
    I am struck by a recollection of the time I had a briefing. 
As a state representative, we were invited down, the so-called 
young leaders, and there were about 300 of us in a 2-day 
conference. It was my total education on realizing that the 
State Department thrives on ambiguity. So the Results Act must 
be that cultural challenge. [Laughter.]
    But I am absolutely convinced, hearing the testimony today, 
how important it would be to have a clear vision, and in so 
many different areas, how beneficial it would be.
    Mr. Carpenter, are you all set?
    Mr. Carpenter. Yes.
    Mr. Shays. Yes, Ms. Williams-Bridgers.
    Ms. Williams-Bridgers. Mr. Chairman, I would like to 
provide some support and encouragement to this committee, to 
undertake the type of initiative that Mr. Mica suggested. I 
think that it is a critical issue that has to be addressed in 
the short term.
    Mr. Shays. Which one?
    Ms. Williams-Bridgers. The information sharing and the need 
for inter-agency communications at post.
    Mr. Shays. OK.
    Ms. Williams-Bridgers. It is not only an issue of 
importance to strategic planning, and being able to have open 
lines of communications about what our goals and priorities 
are, overseas.
    But it also is important, because in this age where 
information moves so very quickly, and where our knowledge is 
not keeping up with the need to attend to security of 
information that flows very quickly, I think it is important to 
have some kind of collegial discussions with all the agencies 
and the appropriators and the authorizers, who all have vested 
interests in making sure that that type of communication 
occurs.
    Also, it is important, because in some of our critical and 
national interests, border security being one which I know this 
committee is concerned about, the lack of information sharing 
by agencies particularly in the Justice Department and INS, 
with State Department, and consulate offices, about aliens that 
might bring harm to the United States, that information is not 
being routinely shared with the State Department now.
    It is a long standing issue, and it is one that we have 
brought to the attention of many committees in the Congress in 
the past.
    It needs immediate attention to ensure that the type of 
information is made available to State, so that as they 
adjudicate visas and issue new laser visas, that carry with 
them biometric data, that that will ensure better protection of 
identifying people who are not intended recipients of our 
visas.
    But I think that type of information sharing is critical. I 
would hope that that issue would be embraced in any future 
discussions that this committee might lead.
    Mr. Shays. Thank you very much.
    Mr. Edwards, are you all set?
    Mr. Edwards. Yes, and I am in general agreement with all of 
my colleagues here.
    I think Mr. Mica was absolutely correct. He had mentioned 
with narcotics, for example, there must be 10 to 12 agencies.
    One of the issues would be, if each of those 10 agencies, 
let us say, have three people in an Embassy, does it make 
sense, perhaps, to boil that down to two agencies? So instead 
of having 20 people, maybe you can reduce that to 10 to 12, and 
have a lead agency in a particular country for these multi-
agency issues.
    That was discussed at the Cabinet meeting. Attorney General 
Reno suggested that, for example, law enforcement might do 
that. I might say that her suggestion was met with not a great 
deal of concurrence with her fellow law enforcement agencies.
    But that is one of the issues that we have, working 
together. Mr. Tierney, you had mentioned 100 janitors, and 10 
of them were cleared, or some statistic like that. As you know, 
we are subject to the FAIR Act, where we have to contract out 
essentially non-Government services, domestically.
    When you look at a janitor force, one of the things that 
baffles me, having come in from the private sector, we have 
those people during working hours, because if they are not 
cleared, we have to watch what they are doing.
    My three colleagues at this table all have routines, when 
they come into their front office, somebody has to trail these 
people around. If the telephone repairman comes in, he puts all 
these parts out on the floor. You do not know what in the world 
they are putting into them.
    We have a few Xerox repairmen and a few telephone repairmen 
that are cleared. But, you know, when the back-up forces come, 
that has introduced a challenge to diplomatic security, as well 
as the agency.
    You know, those people may be there for nefarious purposes. 
Of course, in many cases, these people are in the lower income 
areas. Getting people that can pass clearance, from people 
coming from either immigrants to the country or lower income, 
is not the easiest thing in the world.
    Mr. Tierney. I guess, at least with regard to that, it 
might do everybody well to examine whether it makes sense in 
continuing to contract out, and run into those repetitive 
problems, or to have the staff on hand, and whether that would, 
in fact, save money. You would have staff on hand that was just 
cleared, once and for all.
    Mr. Edwards. I think that is a good observation. Of course, 
if they were cleared, perhaps they could come in where they 
were not underfoot, with everybody else, during the 8 busy 
hours. However, my own experience is that we are 24 times 7. So 
the building is never empty.
    But it is discouraging, when you are there with a 
conference in your conference room, and the vacuum cleaner is 
going on in your front office.
    Mr. Tierney. For that reason, for security, for a number of 
reasons, it would seem to make sense that sometimes these 
policies, while well intended, sort of wash over.
    Thank you.
    Mr. Shays. I wish I could think of a metaphor for ending up 
with cleaners. [Laughter.]
    Thank you all. It has been a very interesting hearing, 
actually. I appreciate your flexibility in doing it this way. I 
think it worked better.
    Thank you. This hearing is closed.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3594.054

[GRAPHIC] [TIFF OMITTED] T3594.055

[GRAPHIC] [TIFF OMITTED] T3594.056

[GRAPHIC] [TIFF OMITTED] T3594.057

[GRAPHIC] [TIFF OMITTED] T3594.058

[GRAPHIC] [TIFF OMITTED] T3594.059

[GRAPHIC] [TIFF OMITTED] T3594.060

[GRAPHIC] [TIFF OMITTED] T3594.061

[GRAPHIC] [TIFF OMITTED] T3594.062

[GRAPHIC] [TIFF OMITTED] T3594.063

[GRAPHIC] [TIFF OMITTED] T3594.064

[GRAPHIC] [TIFF OMITTED] T3594.065

[GRAPHIC] [TIFF OMITTED] T3594.066

[GRAPHIC] [TIFF OMITTED] T3594.067

[GRAPHIC] [TIFF OMITTED] T3594.068

[GRAPHIC] [TIFF OMITTED] T3594.069

[GRAPHIC] [TIFF OMITTED] T3594.070

[GRAPHIC] [TIFF OMITTED] T3594.071

[GRAPHIC] [TIFF OMITTED] T3594.072

[GRAPHIC] [TIFF OMITTED] T3594.073

[GRAPHIC] [TIFF OMITTED] T3594.074

[GRAPHIC] [TIFF OMITTED] T3594.075

[GRAPHIC] [TIFF OMITTED] T3594.076

[GRAPHIC] [TIFF OMITTED] T3594.077

[GRAPHIC] [TIFF OMITTED] T3594.078

[GRAPHIC] [TIFF OMITTED] T3594.079

[GRAPHIC] [TIFF OMITTED] T3594.080

[GRAPHIC] [TIFF OMITTED] T3594.081

[GRAPHIC] [TIFF OMITTED] T3594.082

[GRAPHIC] [TIFF OMITTED] T3594.083

[GRAPHIC] [TIFF OMITTED] T3594.084

[GRAPHIC] [TIFF OMITTED] T3594.085

[GRAPHIC] [TIFF OMITTED] T3594.086

[GRAPHIC] [TIFF OMITTED] T3594.087

[GRAPHIC] [TIFF OMITTED] T3594.088

[GRAPHIC] [TIFF OMITTED] T3594.089

[GRAPHIC] [TIFF OMITTED] T3594.090

[GRAPHIC] [TIFF OMITTED] T3594.091

[GRAPHIC] [TIFF OMITTED] T3594.092

[GRAPHIC] [TIFF OMITTED] T3594.093

[GRAPHIC] [TIFF OMITTED] T3594.094

[GRAPHIC] [TIFF OMITTED] T3594.095

[GRAPHIC] [TIFF OMITTED] T3594.096

[GRAPHIC] [TIFF OMITTED] T3594.097

[GRAPHIC] [TIFF OMITTED] T3594.098

[GRAPHIC] [TIFF OMITTED] T3594.099

[GRAPHIC] [TIFF OMITTED] T3594.100

[GRAPHIC] [TIFF OMITTED] T3594.101

[GRAPHIC] [TIFF OMITTED] T3594.102

[GRAPHIC] [TIFF OMITTED] T3594.103

[GRAPHIC] [TIFF OMITTED] T3594.104

[GRAPHIC] [TIFF OMITTED] T3594.105

[GRAPHIC] [TIFF OMITTED] T3594.106

[GRAPHIC] [TIFF OMITTED] T3594.107

[GRAPHIC] [TIFF OMITTED] T3594.108

[GRAPHIC] [TIFF OMITTED] T3594.109

[GRAPHIC] [TIFF OMITTED] T3594.110

[GRAPHIC] [TIFF OMITTED] T3594.111

[GRAPHIC] [TIFF OMITTED] T3594.112

[GRAPHIC] [TIFF OMITTED] T3594.113

[GRAPHIC] [TIFF OMITTED] T3594.114

[GRAPHIC] [TIFF OMITTED] T3594.115

[GRAPHIC] [TIFF OMITTED] T3594.116

[GRAPHIC] [TIFF OMITTED] T3594.117

[GRAPHIC] [TIFF OMITTED] T3594.118

[GRAPHIC] [TIFF OMITTED] T3594.119

[GRAPHIC] [TIFF OMITTED] T3594.120

[GRAPHIC] [TIFF OMITTED] T3594.121

[GRAPHIC] [TIFF OMITTED] T3594.122


</pre></body></html>
